             Audit Report



 Accuracy of Quarterly Wage Data
and Their Impact on Social Security
             Benefits




       A-03-12-11213 | March 2013
MEMORANDUM


Date:      March 12, 2013                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Accuracy of Quarterly Wage Data and Their Impact on Social Security Benefits
           (A-03-12-11213)

           The attached final report presents the results of our audit. Our objectives were to assess the
           accuracy of the quarterly wage data collected by the Federal Office of Child Support
           Enforcement and determine their effectiveness in helping identify overpayments in the Social
           Security Administration’s benefit programs.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Accuracy of Quarterly Wage Data and Their Impact on Social
Security Benefits
A-03-12-11213
March 2013                                                                    Office of Audit Report Summary

Objectives                                   Our Findings

To assess the accuracy of the quarterly      During Fiscal Years (FY) 2006 to 2012, SSA was not always able
wage data collected by the Office of         to verify the accuracy of the names and Social Security numbers on
Child Support Enforcement (OCSE)             the quarterly wage reports because many States submitted a partial
and determine their effectiveness in         set of, or no, letters in the employee name field. Specifically, SSA
helping identify overpayments in the         could not verify 29 percent of the records in FY 2006. This amount
Social Security Administration’s             was reduced to 23 percent in FY 2012. Although some States may
(SSA) benefit programs.                      have had complete and accurate wage information in their records,
                                             their computer systems could not transmit all the required wage
Background                                   information to OCSE. Additionally, some States only required that
                                             employers submit partial names for employees. As of 2012, several
The National Directory of New Hires          States had taken, or would be taking, steps to ensure they complied
(NDNH) is a repository of wage and           with the reporting requirements for the quarterly wage data, which
employment information that includes         should help decrease the number of records posted to the non-
new hire (W-4), unemployment                 verifiable file.
insurance, and quarterly wage
information reported by State and            Despite the fact that the non-verifiable records represented a
Federal agencies. Our audit focused          significant portion of quarterly wage records posted to the NDNH
on the quarterly wage data included in       file, SSA was able to use the quarterly wage data included on these
the NDNH. SSA accesses the                   records to verify individuals’ eligibility and continued eligibility for
quarterly wage data to (1) establish or      SSI, Disability Insurance, and administration of the TTW program.
verify eligibility and/or payment            We found that 29 of the 83 S2 alerts we reviewed were generated
amounts under the Supplemental               based on non-verifiable quarterly wage reports. As SSA staff
Security Income (SSI) program;               developed these alerts, they verified the identities of individuals
(2) establish or verify eligibility and/or   included on the quarterly wage reports by contacting individuals to
continuing entitlement under the             confirm the quarterly wages actually belonged to SSI recipients and
Disability Insurance program; and            provided advance notice prior to taking any action. Because SSA
(3) administer the Ticket to Work            used the quarterly wages, it identified about $114,000 in
(TTW) and Self-Sufficiency programs.         overpayments. Therefore, the non-verifiable records did not
                                             negatively impact SSA’s ability to identify improper payments in
In addition, SSA verifies the names          its SSI program.
and Social Security numbers on all
quarterly wage reports to ensure the
data are accurate before OCSE
transmits them to State and Federal
agencies.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
     Verification of Quarterly Wage Data .........................................................................................2
Methodology ....................................................................................................................................2
Results of Review ............................................................................................................................3
     Non-Verifiable Quarterly Wage Data ........................................................................................4
           Major Contributors to the Non-Verifiable File ....................................................................5
     SSA’s Use of Quarterly Wage Data...........................................................................................6
           Quarterly File Match ............................................................................................................6
           Online Query Access to Quarterly Wage File .....................................................................8
Conclusions ......................................................................................................................................9
Appendix A – Federal Agencies’ Use of Quarterly Wage Data................................................. A-1
Appendix B – Scope and Methodology ..................................................................................... B-2
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Accuracy of Quarterly Wage Data (A-03-12-11213)
ABBREVIATIONS
CBA                 Cost Benefit Analysis

CDR                 Continuing Disability Review

D.C.                District of Columbia

DI                  Disability Insurance

DoL                 Department of Labor

Form SS-5           Application for a Social Security Card

FY                  Fiscal Year

HHS                 Department of Health and Human Services

IRC                 Internal Revenue Code

NDNH                National Directory of New Hires

OCSE                Office of Child Support Enforcement

OIG                 Office of the Inspector General

OQP                 Office of Quality Performance

POMS                Program Operations Manual System

PRWORA              Personal Responsibility and Work Opportunity Reconciliation Act of 1996

Pub. L. No.         Public Law Number

SSA                 Social Security Administration

SSI                 Supplemental Security Income

SSN                 Social Security Number

SSR                 Supplemental Security Record

TTW                 Ticket to Work

U.S.C.              United States Code




Accuracy of Quarterly Wage Data (A-03-12-11213)
OBJECTIVES
The objectives of our review were to assess the accuracy of the quarterly wage data collected by
the Office of Child Support Enforcement (OCSE) and determine their effectiveness in helping
identify overpayments in the Social Security Administration’s (SSA) benefit programs.

BACKGROUND
The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (PRWORA)
authorized the Department of Health and Human Services’ (HHS) OCSE to manage the National
Directory of New Hires (NDNH) database. 1 The NDNH is a repository of wage and
employment information that includes new hire (W-4), unemployment insurance, and quarterly
wage information reported by State and Federal agencies. Our audit focused on the quarterly
wage data included in the NDNH. Congress authorized State and specific Federal agencies 2 to
receive and use the NDNH information for specific purposes. The quarterly wage component is
critical to State and Federal agencies’ child support enforcement, fraud identification, benefit
establishment, and debt recovery.

SSA accesses the quarterly wage data 3 via a routing file match and online queries to (1) establish
or verify eligibility and/or payment amounts under the Supplemental Security Income (SSI)
program; (2) establish or verify eligibility and/or continuing entitlement under the Disability
Insurance (DI) program; and (3) administer the Ticket to Work (TTW) and Self-Sufficiency
programs.

For the file match, SSA systems generate an S2 alert 4 when the match between the Supplemental
Security Record (SSR) and the quarterly wage file shows there is significant unreported or
underreported wages. SSA uses established criteria, such as tolerances, to generate the S2 alerts
and post them to the recipient’s record for development by field office staff.




1
    Pub. L. No. 104–193, § 316, 110 Stat. 2105, 2216 (codified at Social Security Act, § 453(i), 42 U.S.C. § 653(i).
2
 Social Security Act, § 453(i)(3) and (j),42 U.S.C. § 653(i)(3) and (j). See Appendix A for a list of Federal agencies
authorized to access the NDNH database.
3
    Social Security Act, § 453 (j)(4), 42 U.S.C. § 653(j)(4).
4
 SSA matches the SSR against the quarterly wage file looking for significant wage discrepancies for SSI recipients
and deemors in all States and the District of Columbia. An alert is generated when the wage amount for a quarter
exceeds the SSR wage amount for that quarter by more than the “tolerance.” The tolerance for a recipient’s wage is
$250 for a quarter. The tolerance for a deemor’s wage is $500 for a quarter. The S2 alert will not be generated for
self-employment income because it is reported annually, not quarterly.




Accuracy of Quarterly Wage Data (A-03-12-11213)                                                                        1
Verification of Quarterly Wage Data
The PRWORA mandates SSA verify the names and Social Security numbers (SSN) on all
quarterly wage reports to ensure the data are accurate before OCSE transmits them to State and
Federal agencies. 5 SSA compares the name and SSN on the quarterly wage report with those on
its Numident File. 6 Based on the verification responses provided by SSA, OCSE provides the
following responses to State and Federal agencies. 7

•   Verified: The name/SSN combination matches SSA records. The matched records are
    posted to the NDNH file.

•   Unverified: The name/SSN combination does not match SSA’s record or SSA never issued
    the SSN. The record is not posted to the NDNH file. Instead, it is returned to the submitter
    with an error code.

•   Non-verifiable: A valid SSN is provided, but the name field is blank or does not include the
    minimum number of characters for verification. The minimum requirements are (1) first
    name must contain one letter, middle name must contain at least one letter, and last name
    must contain at least four letters or (2) first name must contain at least one letter, and last
    name must contain at least seven letters. The records are posted to the NDNH non-verifiable
    file because they may contain valuable information that could be useful to States and Federal
    agencies.

METHODOLOGY
To accomplish our objectives, we gained an understanding of the quarterly wage submission
process and gathered information regarding State reporting trends as they related to the
completeness and accuracy of the quarterly wage data. We reviewed States with a significant
number of non-verifiable responses from Fiscal Years (FY) 2006 to 2012 and determined the
reasons for missing or incomplete data. Further, we reviewed a sample of 83 S2 alerts identified
in our December 2012 audit of The Social Security Administration’s Development of Earnings




5
 Pub. L. No. 104–193, § 316, 110 Stat. 2105, 2217, (codified at Social Security Act, § 453(j)(1)(B), 42 U.S.C. §
653(j)(1)(B).
6
 The Numident File is a record of identifying information (such as name, date of birth, date of death, mother’s
maiden name, etc.) provided by the applicant on his/her Application for a Social Security Card (Form SS-5) for an
original SSN card and subsequent applications for replacement SSN cards. Each record is housed in the Numident
File.
7
 The National Directory of New Hires Guide for Data Submission, Version 12.0, August 12, 2011, pages 12-1 and
20-1.




Accuracy of Quarterly Wage Data (A-03-12-11213)                                                                     2
Alerts for Supplemental Security Income Recipients, (A-02-11-11185) 8 to determine whether the
alerts were generated based on non-verifiable quarterly wages. 9

RESULTS OF REVIEW
During FYs 2006 to 2012, SSA was not always able to verify the accuracy of the names and
SSNs on the quarterly wage reports because many States submitted a partial set of, or no, letters
in the employee name field. Specifically, SSA could not verify 29 percent of the records in
FY 2006. This amount was reduced to 23 percent in FY 2012. For example, in FY 2011, SSA
processed about 603 million transactions through its verification program but was unable to
verify names and SSNs on about 145 million (24 percent) quarterly wage records because of
incomplete names. Although some States may have had complete and accurate wage
information in their records, their computer systems could not transmit all the required wage
information to OCSE. Additionally, some States only required that employers submit partial
names for employees. As of 2012, several States had taken, or would be taking, steps to ensure
they complied with the reporting requirements for the quarterly wage data, 10 which should help
decrease the number of records posted to the non-verifiable file.

                        Figure 1: Verification Response of Quarterly Wage File

            100%
             90%
                       29.4% 27.8%         26.7%      25.1%
             80%                                                  26.2%      24%         22.6%            Non-Verifiable
             70%
                         4.3% 3.7%         3.6%       3.3%
              60%                                                3.1%       2.9%         2.9%             Unverified
              50%
              40%                                                                                         Verified
                        66.3% 68.5%
              30%                   69.7%             71.6%
               20%                                               70.7%      73.1%
               10%
                                                                                        74.5%
                0%
                       FY 2006
                                 FY 2007
                                           FY 2008
                                                     FY 2009
                                                               FY 2010
                                                                          FY 2011
                                                                                     FY 2012*

                  *As of May 2012


8
 We obtained a sample of 250 earnings alerts that included 83 S2 alerts. The remaining 167 cases were either K6 or
K7 alerts, which are generated when the wage amount on the Master Earnings File exceeds the SSI record by a
certain threshold.
9
    See Appendix B for further details about our scope and methodology.
10
  Pub. L. No. 104–193, § 313(b) 110 Stat.2105, 2211 (codified at Social Security Act, § 453a(g)(2), 42 U.S.C. §
653a(g)(2)).




Accuracy of Quarterly Wage Data (A-03-12-11213)                                                                   3
Despite the fact that the non-verifiable records represented a significant portion of quarterly
wage records posted to the NDNH, SSA used the quarterly wage data in these records to verify
individuals’ eligibility and continued eligibility for SSI, DI, and administration of the TTW
program. We found that 29 of the 83 S2 alerts we reviewed were generated based on non-
verifiable quarterly wage reports. As SSA staff developed these alerts, they verified the
identities of individuals on the quarterly wage reports by contacting individuals to confirm the
quarterly wages actually belonged to SSI recipients and provided advance notice before taking
action. 11 Because SSA used the quarterly wages, it identified about $114,000 in overpayments.
Therefore, the non-verifiable records did not negatively impact SSA’s ability to identify
improper payments in its SSI program.

Non-Verifiable Quarterly Wage Data
SSA could not verify the names and SSNs on 29 percent of the quarterly wages in FY 2006,
which was reduced to 23 percent in FY 2012. This occurred because many States submitted only
a partial set of, or no, letters in the employee name field (see Table 1). In 2006, SSA could not
verify the names and SSNs on 184 million (29 percent) of the 626 million quarterly wage reports
States submitted. However, as of May 2012, the non-verifiable records had been reduced to
98 million (23 percent) of the 431 million quarterly wage reports—a 6-percent reduction over the
6-year period.

               Table 1: Quarterly Wage Submissions (FYs 2006 Through 2012)
                  Verified                 Unverified                Non-Verifiable
                                                                                               Total
     FY
      Submissions         Submissions         Submissions Percent
                  Percent             Percent                                                (millions)
       (millions)          (millions)          (millions)
 2006    415       66.3       27        4.3      184       29.4                                 626
 2007    447       68.5       24        3.7      181       27.8                                 652
 2008    466       69.7       24        3.6      179       26.7                                 669
 2009    445       71.6       21        3.3      156       25.1                                 622
 2010    438       70.7       19        3.1      163       26.2                                 620
 2011    441       73.1       17        2.9      145       24.0                                 603
2012*    321       74.5       12        2.9       98       22.6                                 431
*As of May 2012




11
  SSA, Program Operations Manual System (POMS), SI 02310.007, Processing Alerts from Computer Matches
(June 23, 2008) and SSA, POMS, NL 00601.030, Advance Notices (December 16, 2002).




Accuracy of Quarterly Wage Data (A-03-12-11213)                                                         4
Major Contributors to the Non-Verifiable File
In 2006, 16 States were major contributors to the non-verifiable file. Fifty-nine to 100 percent of
their submissions was posted to the non-verifiable file because of missing or incomplete first
and/or last names. Of the 16 States, 12 did not include any names on their quarterly wage
reports.

To understand why the States were submitting missing or incomplete records, we contacted
officials at the Department of Labor (DoL), which coordinates with OCSE to help ensure States
were complying with the reporting requirements for the NDNH. 12 DoL conducted a survey in
November 2011 to determine why some States were submitting incomplete or missing data on
their quarterly wage reports. 13 According to the responses, although some States may have had
complete and accurate wage information in their records; their computer systems could not
transmit all the required wage information to OCSE. Additionally, some States only required
that employers submit partial names, such as a first name, middle initial, or only a last name.
DoL officials stated that if funds are available for this purpose, States could request funding from
DoL to improve their computer systems to help ensure they are compliant when reporting
quarterly wage data.

As shown in Table 2, 7 of the 16 States had made improvements in 2012 by submitting the
minimum number of characters needed to verify the names and SSNs. In 2006, these seven
States submitted non-verifiable records ranging from 59 to 100 percent. However, in 2012, the
non-verifiable records ranged from 0 to 60 percent. For example, the State of Wyoming had
significantly improved, from submitting no names on the quarterly wage reports in 2006 to
including full names on its records in 2012. In January 2012, the State of Wyoming upgraded its
computer system to allow it to start capturing and reporting the full names on the quarterly wage
reports submitted to OCSE.

The nine remaining States continued reporting 100 percent of their records as non-verifiable in
2012. Four States indicated they would be taking steps to allow their computer systems to report
full names to ensure compliance with the NDNH reporting requirements as well as requiring that
employers submit full names. For example, the State of Arizona had not been capturing or
storing employee names. In 2011, it received funding from DoL to improve their computer
system that would allow the State to electronically store employee names and send compliant
files to OCSE. Additionally, Arizona indicated it would phase in optical character recognition
technology that could capture employee names from paper reports. The five remaining States
indicated they had no immediate plans to collect or transmit employees’ full names or did not
respond to the survey.


12
  Pub. L. No. 104–193, §§ 313(b) and 316 (j), 110 Stat.2105, 2211 and 2217 (codified at Social Security Act, §§
453a(g)(2) and 453(j), 42 U.S.C. §§ 653a(g)(2) and 653(j)).
13
  DoL contacted those States that were not submitting names and/or not submitting quarterly wage records for all
four quarters. DoL’s survey results were solely based on responses provided by States.




Accuracy of Quarterly Wage Data (A-03-12-11213)                                                                    5
                  Table 2: States with High Percentage of Non-Verifiable Records
           States              Non-Verifiable     Non-Verifiable             Responses
                                   2006               2012
                                         States that Improved
Wyoming                            100%                0%
Oklahoma                           100%               16%
Colorado                           100%               60%
Maryland                            83%               57%
Montana                             68%               49%
Arkansas                            61%               11%
South Dakota                        59%               11%
                                      States that Did Not Improve
Arizona                            100%              100%        States that had plans to improve
Maine                              100%              100%       their quarterly wage submissions
West Virginia                      100%              100%
Iowa                               100%              100%
District of Columbia               100%              100%       States that did not provide a plan
North Carolina                     100%              100%           of action to improve their
South Carolina                     100%              100%          quarterly  wage submissions
Kansas                             100%              100%
Tennessee                          100%              100%           Did not provide response

SSA’s Use of Quarterly Wage Data
Despite the fact that the non-verifiable records represented a significant portion of quarterly
wage records posted to the NDNH file, SSA was able to use the quarterly wage data via a batch
match and online queries to verify some individuals’ eligibility for SSI and DI benefits and
administration of the TTW program. SSA’s use of the quarterly wage data allowed the Agency
to make faster decisions on its benefit programs.

Quarterly File Match
Since 1998, SSA has performed a quarterly match between SSI payment rolls and the NDNH
quarterly wage file. SSA matches records based on the SSN only. The purpose of the match is
to identify unreported or underreported income for SSI recipients and deemors. 14 When the
match shows there are significant un- or underreported wages, SSA uses established criteria,
such as tolerances, to generate S2 alerts that are posted to the individual’s record. Since the


14
     SSA, POMS, SI 01310.001, The Role of Deeming (November 17, 2010).




Accuracy of Quarterly Wage Data (A-03-12-11213)                                                      6
match is based on SSNs only, the alerts are generated from both verified and non-verifiable data
and are sent to the field offices to resolve wage discrepancies, determine past and continuing SSI
eligibility and/or payment amounts, and pursue any overpayment recovery. The S2 alerts
generated from non-verifiable data include a message indicating that alerts were generated
without a surname match.

We found that 29 of the 83 S2 alerts we reviewed were generated based on quarterly wage
reports that were non-verifiable, and the wage reports had missing or incomplete first and/or last
names. As SSA staff developed these alerts, they verified the identities of some of the
individuals on the quarterly wage reports by contacting individuals to confirm whether the
quarterly wages belonged to SSI recipients before taking any actions. 15 SSA staff confirmed that
the quarterly wages belonged to 22 recipients who were overpaid approximately $114,000 in
benefits, of which SSA identified $73,000, and the prior audit 16 identified $41,000 (see Table 3).

                                    Table 3: Non-Verifiable S2 Alerts
                                                          SSA Identified       OIG Identified
                                          Individuals                                                 Total
                                                          Overpayment          Overpayment
 SSA Identified Overpayment                    7             $31,435                     $0         $31,435
 SSA Identified Overpayment,
 but OIG Identified Additional                 9             $42,044               $25,784          $67,828
 Overpayment
 SSA Identified No
 Overpayment, but OIG                          6                $0                 $15,189          $15,189
 Identified Overpayment
 No Overpayment                                7                $0                       $0            $0
 Total                                        29             $73,479               $40,973          $114,452

Moreover, SSA’s most recent cost-benefit analysis of the quarterly match between SSA and
OCSE showed that, in FY 2009, the processing of the S2 alerts resulted in SSA detecting about
$108 million in overpayments and a decrease of about $33 million in recurring monthly
payments. 17 By using verified and non-verifiable records, SSA estimated it detected about
$141 million in improper SSI benefit payments. Therefore, the non-verifiable records did not
negatively impact SSA’s ability to identify improper payments in the SSI program.



15
     SSA, POMS, SI 02310.007, Processing Alerts from Computer Matches (June 23, 2008).
16
  SSA, OIG, The Social Security Administration’s Development of Earnings Alerts for Supplemental Security
Income Recipients, (A-02-11-11185) December 2012.
17
  SSA, Office of Quality Performance, CBA (Match 1074): Consolidated Cost Benefit Analysis for the Online
Query and Quarterly Batch Computer Between the Office of Child Support Enforcement and the Social Security
Administration, April 2011. SSA conducted the cost-benefit analysis as required by the Computer Matching
Agreement Between SSA and HHS.



Accuracy of Quarterly Wage Data (A-03-12-11213)                                                               7
Online Query Access to Quarterly Wage File
SSA had online query access to the quarterly wage file for the SSI, DI, and TTW programs. In
FY 2009, the Agency generated over 6.4 million online queries. SSA employees accessed the
quarterly wage data to assist with evaluating beneficiaries’ work activity under the SSI, DI, and
TTW programs. The information in these wage reports served as a lead or indication of earnings
from employment. The quarterly wage screens included both verified and non-verifiable data.
Again, the non-verifiable records had missing or incomplete names and included a verification
code that indicated the name and SSN on the report were not verified via SSA’s Numident.
However, as mentioned previously, before taking any adverse action, SSA employees
independently verified whether the wages belonged to recipients and beneficiaries.

The benefits of SSA having online query access to the quarterly wage data included, but was not
limited to, the following.

•     Real-time access to the quarterly wage information enabled field office staff to provide more
      timely assistance to claimants obtaining benefits and to make more accurate eligibility
      determinations.

•     Cost avoidance of not having to conduct a work continuing disability review (CDR). A CDR
      is conducted when an issue, such as work activity or earnings above a specified amount,
      occurs and SSA must determine whether an individual continues meeting the law’s disability
      requirements. 18 If the online query were not available, SSA would have to request a work
      CDR for each of the beneficiaries under review. The Agency estimated that in FY 2009, it
      avoided having to conduct over 813,000 CDRs for the DI and TTW programs.




18
     SSA, POMS, DI 40501.010, Events Which May Initiate a CDR (September 16, 2002).




Accuracy of Quarterly Wage Data (A-03-12-11213)                                                   8
CONCLUSIONS
Overall, we found that SSA was not always able to verify the accuracy of names and SSNs on
the quarterly wage reports in the NDNH file because some States submitted reports with missing
and incomplete names. Specifically, SSA could not verify 29 percent of the records in FY 2006,
and this was reduced to 23 percent in FY 2012. Although States continued submitting reports
with missing or incomplete names, we learned that several States had taken, or would be taking,
steps to improve accuracy of their quarterly wage data to ensure compliance with the reporting
requirements, which should further reduce the number of records posted to the non-verifiable
file.

Even though the non-verifiable data represented a significant portion of the quarterly wage files,
SSA was able to use the non-verifiable data to verify some individuals’ eligibility and continued
eligibility for SSI, DI, and administration of the TTW program. In FY 2009, using both verified
and non-verifiable quarterly wage records, SSA estimated that it detected about $141 million in
improper SSI benefit payments. Therefore, the non-verifiable records did not negatively impact
SSA’s ability to identify improper payments within its SSI benefit program.




Accuracy of Quarterly Wage Data (A-03-12-11213)                                                      9
                                      APPENDICES




Accuracy of Quarterly Wage Data (A-03-12-11213)
Appendix A – FEDERAL AGENCIES’ USE OF QUARTERLY
             WAGE DATA
Congress authorized State and specific Federal agencies to receive and use the National
Directory of New Hires (NDNH) information for authorized purposes. The quarterly wage
component is critical to State and Federal agencies for child support enforcement, fraud
identification, benefit establishment, and debt recovery. There are five Federal agencies
authorized to use the data to assist with administering their programs. The Social Security
Administration (SSA) as well as the other Federal agencies, uses the NDNH quarterly wage data
to detect overpayments, collect debt, verify income, and/or detect fraud.

                       Table A-1: Federal Agencies’ Use of NDNH Data
        Federal Agency                                          Purpose
Social Security Administration      Establishing or verifying eligibility and/or payments under the
                                    Supplemental Security Income and Old-Age, Survivors
                                    Disability Insurance, and Ticket to Work and Self-Sufficiency
                                    programs.
Department of Health and            Child support enforcement.
Human Services
Department of the Treasury          Administering:
                                        • Section 32 (earned income tax credit) of the Internal
                                            Revenue Code (IRC)
                                        • advance payment of the earned income tax credit
                                            (Section 3507 of the IRC)
                                        • verifying a claim of employment in a tax return.
                                    Collecting debt owed to the Government.
Department of Education             Debt collection from individuals who defaulted on student
                                    loans or owe an obligation to refund the overpayment of a
                                    grant.
Department of Housing and           Verifying the employment and income of individuals
Urban Development                   participating in certain housing programs.




Accuracy of Quarterly Wage Data (A-03-12-11213)                                                 A-1
Appendix B – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•     Reviewed applicable Federal laws and sections of the Social Security Administration’s
      (SSA) regulations, policies, and procedures.

•     Reviewed Office of the Inspector General (OIG) reports, Government Accountability Office
      reports, and other relevant documents.

•     Reviewed applicable sections of the Federal Office of Child Support Enforcement’s (OCSE)
      National Directory of New Hires (NDNH) Guide for Data Submission, August 12, 2011, 1
      and A Guide to the National Child Support Enforcement Directory of New Hires, December
      7, 2011. 2

•     Reviewed the Interagency Information Exchange Agreements between SSA and the
      Department of Health and Human Services (HHS) authorizing access to the NDNH data for
      Fiscal Years (FY) 2009 through 2011.

•     Reviewed the Computer Matching Agreements between SSA and HHS, OCSE, covering
      information exchange operations to include online query access for Supplemental Security
      Income (SSI), Disability Insurance (DI), and Ticket to Work (TTW) and Self Sufficiency
      programs, and SSI quarterly wage match.

•     Reviewed the Office of Quality Performance’s (OQP) Cost Benefit Analysis (CBA) reports:

               o Evaluation of a Pilot Match Between the Supplemental Security Record (SSR)
                 and the Office of Child Support Enforcement (OCSE) New Hires File (January
                 2007)

               o CBA Match (1074): Computer Matching Between the Office of Child Support
                 Enforcement (OCSE) and Supplemental Security Record (SSR) (March 2008)

               o CBA (Match 1074): Consolidated CBA for the Online Query and Quarterly Batch
                 Computer Between the Office of Child Support Enforcement and the Social
                 Security Administration (April 2011)

•     Reviewed data provided by OCSE that contained summary counts of all records in the
      NDNH from October 1, 2007 through May 10, 2012.


1
  The National Directory of New Hires Guide for Data Submission, Version 12.0, August 12, 2011, provides general
information concerning the NDNH and its purpose, as well as broad technical information for data submission.
2
    This guide provides a general overview of the data maintained in the NDNH and the limitations on its use.




Accuracy of Quarterly Wage Data (A-03-12-11213)                                                                 B-2
•   Discussed with OCSE staff State reporting trends as they relate to the completeness and
    accuracy of quarterly wage data.

•   Reviewed the Department of Labor’s survey results for States that submitted incomplete
    quarterly wage data. The survey was conducted in November 2011.

•   Assessed the impact the incomplete quarterly wage data have on SSA’s ability to establish or
    verify eligibility and/or payment amounts under the SSI and DI programs.

•   Reviewed 83 S2 alerts obtained from a random sample of 250 earnings alerts identified
    during our review of The Social Security Administration’s Development of Earnings Alerts
    for Supplemental Security Income Recipients, December 2012. We analyzed the 83 S2 alerts
    and reviewed online query and other pertinent SSA records to identify verifiable and non-
    verifiable records.

•   Contacted five Federal agencies authorized to receive quarterly wage data: SSA, HHS, and
    the Departments of Education, Housing and Urban Development, and the Treasury to
    (1) gain a better understanding of how the agencies use the quarterly wage data in their
    programs and (2) determine whether the accuracy of the quarterly wage data affected their
    ability to identify improper payments in their programs.

We determined the quarterly wage NDNH data used for this audit were sufficiently reliable to
meet our objective. The entities audited were the Offices of Earnings, Enumeration, and
Administrative Systems and Applications and Supplemental Security Income Systems, under the
Office of the Deputy Commissioner for Systems.

Our work was conducted at the Philadelphia Audit Division, Philadelphia, Pennsylvania, from
March through December 2012. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.




Accuracy of Quarterly Wage Data (A-03-12-11213)                                                 B-3
           Appendix C – AGENCY COMMENTS




                                           SOCIAL SECURITY

MEMORANDUM

Date:      February 12, 2013                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Accuracy of Quarterly Wage Data and Their
           Impact on Social Security Benefits” (A-03-12-11213)—INFORMATION

           Thank you for the opportunity to review the draft report. We do not have any comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.




           Accuracy of Quarterly Wage Data (A-03-12-11213)                                              C-1
Appendix D – MAJOR CONTRIBUTORS
Cylinda McCloud-Keal, Director, Philadelphia Audit Division

Carol Madonna, Audit Manager

Mary Dougherty, Auditor-in-Charge




Accuracy of Quarterly Wage Data (A-03-12-11213)               D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
